IDENTIFYING CURRENT CHALLENGES
TO INSS PLANS FOR USING RISK MANAGEMENT
IN THE SEAPORT ENVIRONMENT- EXECUTIVE SUMMARY
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
IDENTIFYING CURRENT CHALLENGESTO INS'S PLANS FOR USING RISK MANAGEMENT
IN THE SEAPORT ENVIRONMENT
I-2000-015
March 2000
EXECUTIVE SUMMARY
The Immigration and Naturalization Service (INS) requested that the Office of the Inspector General (OIG), Inspections Division, provide an independent assessment regarding the direction of INSs current proposal for using risk management within the seaport environment. INS also requested that we provide suggestions on how it could ensure that this proposal meets IN Ss goals for improving the efficiency and effectiveness of the seaport inspection process. Because INS is still in the early stages of developing a proposal for using risk management within the seaport environment, we believed we could best assist INS by determining the viability of using risk management within the seaport environment.
Risk management is widely used today in both the private and public sectors as a way of identifying risks  or undesired outcomes  and assigning resources in proportion to these risks. Risk management is not intended to eliminate risks, but rather to improve efforts to address these risks through the reassignment of resources. Within the seaport environment, risks include stowaways (i.e., individuals who hide on vessels in an attempt to enter the United States illegally), deserters (i.e., crewmembers who either leave a vessel without proper authorization or who do not return to the vessel before it leaves the seaport), the use of fraudulent or stolen entry documents, and organized attempts to illegally smuggle non-U.S. citizens into the United States.
By using risk management within the seaport environment, INS hopes to identify certain characteristics that indicate whether vessels may be more or less likely to be associated with future immigration violations when compared to other vessels. This type of analysis could allow INS to target high risk vessels with either increased or more thorough inspections by reassigning inspection resources from low risk vessels. Currently, INS inspects individuals on board every vessel that arrives into the United States, regardless of whether a vessel is considered to be high or low risk. This can result in an inefficient use of inspection resources. While current law does not allow INS to determine whether a non-U.S. citizen should be inspected, INS can determine how an inspection is conducted.
Analyzing inspection data for three seaports, we found that risk management may be a viable strategy for INS to pursue within the seaport environment. We selected these three seaports not only because of their high inspection volume, but also because they each use automated databases for recording and maintaining seaport inspection data. As part of its proposal for using risk management within the seaport environment, INS intends to use an automated database to identify differing levels of immigration risks.
Our analysis indicates that certain vessel characteristics can be used in determining how much more or less likely vessels with specific characteristics could have future stowaways or deserters when compared to all other vessels inspected at a given seaport. The fact that immigration risk levels can vary based on certain vessel characteristics suggests that INS may be able to reassign inspection resources within the seaport environment from areas of lower risk to areas of higher risk using a risk management strategy. However, because our analysis was limited to only three seaports and because we could only consider vessel characteristics recorded as part of INSs automated databases, additional analysis is needed in order for INS to fully assess the viability of using risk management within the seaport environment.
Regardless of whether risk management is viable within the seaport environment, we do not believe that INSs current capabilities for collecting, analyzing, and sharing inspection data are sufficient for supporting an effective risk management strategy. Current methods used by INS for recording and maintaining inspection data make it difficult to conduct the type of analysis required by an effective risk management strategy not only at seaports that use manual methods, but also at seaports using automated databases. In addition, we found that not all inspection data is complete or accurate, limiting the extent to which INS may be able to draw reliable conclusions about immigration risks within the seaport environment. Finally, current methods used by INS do not allow seaports to share or exchange inspection data easily. This limits INSs ability to identify any regional or national trends regarding immigration risks and to subsequently develop an appropriate inspection strategy for addressing these risks.
We recognize that INS is still in the early stages of developing a plan for using risk management within the seaport environment. We believe that as part of this plan, INS should not only outline a specific strategy for using risk management at seaports, but that INS should also identify ways to strengthen current methods for collecting, analyzing, and sharing inspection data before a risk management strategy is implemented. Whether INS ultimately decides to use risk management within the seaport environment, we strongly suggest that efforts be undertaken by INS to ensure the integrity of all inspection data that is collected. Once this is accomplished, we strongly suggest that INS strengthen inspection and enforcement efforts at seaports by conducting regular analyses of this inspection data.